4a
I

C@OCKLE

L ega 1 Briefs E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Pax: (402) 342-4850 Nos. 20-543 & 20-544

JANET L. YELLEN,
SECRETARY OF THE TREASURY,
Petitioner,

v.
CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, ET AL.
Respondents.

 

ALASKA NATIVE VILLAGE
CORPORATION ASSOCIATION, INC., ET AL.,
Petitioners,
ve
CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, ET AL.
Respondents.

AFFIDAVIT OF SERVICE %

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that | did, on the 24th day of March, 2021, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF FOR RESPONDENT UTE INDIAN TRIBE OF THE
UINTAH AND OURAY RESERVATION in the above entitled case. All parties required to be served have been served by
third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JEFFREY S. RASMUSSEN (Counsel of Record)
FRANCES C. BASSETT
JEREMY J. PATTERSON
PATTERSON EARNHART REAL BIRD & WILSON
1900 Plaza Drive
Louisville, CO 80027
Phone: (303) 926-5292
jrasmussen@nativelawgroup.com
fbassett@nativelawgroup.com
jpatterson@nativelawgroup.com

Subscribed and sworn to before me this 24th day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

y GENERAL NOTAAY-State of Nebraska x 2 Z 1,
RENEE J. GOSS ¢ dex abreast 4

 

Notary Public Affiant 40562
Elizabeth B. Prelogar, Esq.

Acting Solicitor General

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

Paul D. Clement, Esq.

Kirkland & Ellis LLP

1301 Pennsylvania Avenue, NW
Washington, DC 20004
202-389-5000
Paul.clement@kirkland.com

Riyaz Amir Kanji, Esq.
Kanji & Kantzen, PLLC
303 Detroit Street

Suite 400

Ann Arbor, MI 48104
734-769-5400
rkanji@kanjikatzen.com
C@QCKLE

Legal Briefs

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Nos. 20-543 & 20-544

JANET L. YELLEN,
SECRETARY OF THE TREASURY,
Petitioner,

Vv.
CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, ET AL.
Respondents.

ALASKA NATIVE VILLAGE
CORPORATION ASSOCIATION, INC., ET AL.,
Petitioners,

v.

CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, ET AL.
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR RESPONDENT
UTE INDIAN TRIBE OF THE UINTAH AND OURAY RESERVATION in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

8742 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska x 2. Z j,
' i RENEE J. GOSS 9. ( header :

 

 

My Comm, Exp. September , 2023

Notary Public Affiant 40562
